 Office of Inspector General
      Audit Report


FAA AND INDUSTRY ARE TAKING ACTION
TO ADDRESS PILOT FATIGUE, BUT MORE
 INFORMATION ON PILOT COMMUTING IS
              NEEDED
       Federal Aviation Administration
        Report Number: AV-2011-176
       Date Issued: September 12, 2011
           U.S. Department of
                                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA and Industry Are Taking Action                                             Date:   September 12, 2011
           To Address Pilot Fatigue, but More Information on
           Pilot Commuting Is Needed
           Federal Aviation Administration
           Report No. AV-2011-176

  From:    Jeffrey B. Guzzetti                                                                Reply to
                                                                                              Attn. of:    JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           Fatigue in aviation has been on the National Transportation Safety Board’s
           (NTSB) Most Wanted List of Transportation Safety Improvements since 1990.
           NTSB has cited pilot performance or fatigue as a cause or contributing factor in
           four of the last six fatal accidents involving regional air carriers. In addition, as
           part of its investigation into the February 2009 fatal crash of Colgan Air flight
           3407, NTSB concluded that both pilots were impaired because of fatigue. 1 After
           NTSB’s May 2009 hearing on the Colgan crash, the Chairmen and Ranking
           Members of the Senate Committee on Commerce, Science, and Transportation and
           Subcommittee on Aviation Operations, Safety, and Security, as well as the
           former Chairman of the House Subcommittee on Aviation requested that we
           review the Federal Aviation Administration’s (FAA) regulations and airline
           policies on crew rest requirements and fatigue issues, including pilot domicile and
           commuting. This request was also reiterated by Representatives Louise Slaughter
           and Brian Higgins.

           Therefore, our audit objectives were to assess (1) FAA’s actions taken to address
           the current Federal regulations governing crew rest requirements and fatigue
           issues and (2) FAA’s and the airlines’ oversight and enforcement of those
           regulations. We conducted this audit between August 2009 and July 2011 in
           accordance with generally accepted Government auditing standards prescribed by
           1
               During deliberations at the NTSB Board Meeting to close out the Colgan Air investigation, the three members of the
               Safety Board voted 2-1 to not elevate fatigue as a contributing factor in the accident, noting that the extent of pilots’
               impairment due to fatigue, and the degree to which fatigue contributed to their performance, could not be
               “conclusively” determined.
                                                                                                                       2

the Comptroller General of the United States. Exhibit A details our scope and
methodology. Exhibit B lists the entities we visited or contacted.

RESULTS IN BRIEF
FAA has taken steps to update flight, duty, and rest regulations for pilots. These
include issuing advisory circulars 2 and other guidance 3 to carriers on best practices
to mitigate fatigue and key elements for carriers to include in their fatigue risk
management plans and systems. FAA also published a Notice of Proposed
Rulemaking (NPRM) last year 4 that, if adopted, would significantly change
existing flight, duty, and rest regulations for commercial carriers by basing them
on scientific factors (e.g., time of day flown and sleep consideration) rather than
type of flight operation. However, it will be difficult for FAA to address this issue
or finalize new rest rules given the significant opposition the NPRM faces from
the aviation industry. In addition, the NPRM does not impose requirements on
carriers to track pilot domicile 5 or commuting—factors that can contribute to
fatigue given that many pilots in the industry reside hundreds or thousands of
miles from their assigned duty locations. None of the six air carriers we visited 6
had their own voluntary policies to track pilots who commute or their commuting
distances. The National Academy of Sciences recently completed a study noting
that there was not enough available data to determine the role commuting plays in
contributing to fatigue or whether commuting should be regulated.

Both air carriers and FAA have systems that generally ensured compliance with
current Federal regulations governing flight, duty, and rest requirements by
alerting schedulers of potential violations. However, we found that when non-
compliances do occur due to human error, FAA inspectors do not fully examine
and analyze the self-disclosure data from the carriers on those instances. This
disclosure data, which inspectors normally would not obtain through their regular
surveillance, 7 could serve as a valuable source of information to identify instances
and potential trends related to fatigue. In addition, our assessment of FAA
inspectors’ records at the six carriers identified areas where carriers can improve
internal controls to oversee pilot flight, duty, and rest policies. For example, an

2
     Advisory Circular, 120-100, Basics of Aviation Fatigue, June 7, 2010 and Advisory Circular, 120-103, Fatigue Risk
     Management Systems for Aviation Safety, August 3, 2010.
3
     An Information for Operators (InFO) message contains information for operators that should help them meet
     administrative requirements or certain regulatory requirements with relatively low urgency or impact on safety.
4
     Flightcrew Member Duty and Rest Requirements; 75 Fed. Reg. 55852 (September 14, 2010).
5
     In the aviation industry, “domicile” means the work location of the crewmember rather than the “home” of the
     crewmember.
6
    The six carriers were selected based on their classification as a Part 121 air carrier and represented three types of
     operations: mainline, regional, and cargo.
7
     This system is known as the Air Transportation Oversight System (ATOS). FAA uses ATOS to conduct surveillance
     of nearly 100 airlines that transport more than 90 percent of U.S. airline passenger and cargo traffic. Under the
     ATOS concept, FAA inspectors apply system safety principles and use data analysis to focus their inspections on
     areas that pose the greatest risk and identify potential problems before accidents occur.
                                                                                                                      3

inspector found that one air carrier did not have a manual that described flight
crewmember flight, duty, and rest time process controls or instructions for
showing compliance in their records.

We made four recommendations to FAA to improve its awareness of the extent of
pilot commuting and fatigue within the air carrier industry. FAA concurred with
or met the intent of two of them, which we now consider closed, but we are
requesting a revised response for the remaining two recommendations.

BACKGROUND
Current Federal regulations establish Table 1. Maximum Domestic Flight Time
daily, weekly, monthly, and yearly flight                   Limitations
time limitations for U.S. flight crews (see Flight Time             Time Period
table 1). 8    Although the regulations 8 Hours             Between Rest Periods
contain prescriptive flight time limits,
                                              30 Hours      In Any 7 Consecutive Days
they permit these limits to be exceeded
for “circumstances beyond the control” of 100 Hours         In Any Calendar Month
the air carrier, such as adverse weather 1,000 Hours In Any Calendar Year
conditions, provided the pilot was Source: FAA
originally scheduled within the limits. The current regulations also establish the
amount of rest a pilot must receive based on the pilot’s scheduled flight time. 9

     Table 2. Regulatory Rest Periods for ScheduledTypes of rest are broken down
                    Domestic Flights               into three categories: normal
 Scheduled Flight                                  rest,   reduced       rest,   and
     Time in 24     Normal Reduced Compensatory                          10
    Consecutive      Rest     Rest      Rest
                                                   compensatory    rest,     and  the
       Hours                                       regulations allow for flexibility
Less Than 8 Hours   9 Hours  8 Hours  10 Hours     in scheduling rest periods. For
  8 Hours Or More
                      10
                                                   example, as shown in table 2, a
  But Less Than 9            8 Hours  11 Hours     pilot scheduled for 7 hours of
                     Hours
       Hours
                      11
                                                   domestic flight time is required
 9 Hours or Greater          9 Hours  12 Hours
                     Hours                         to have at least 9 hours of
Source: FAA
                                                   normal rest. However, this rest
can be reduced to 8 hours, as long as the pilot receives 10 hours of compensatory
rest before the next flight.

8
     The current Federal regulations that govern flight and duty time, and crew rest can be found in the Code of Federal
     Regulations (C.F.R.) 14 Part 121, subparts P, Q, R and S (domestic, international and supplemental operations) and
     14 C.F.R. Part 135, subpart F (on demand and commuter operations). According to 14 C.F.R. Section 1.1, flight
     time begins when an aircraft moves under its own power for the purpose of flight and ends when the aircraft comes
     to rest after landing.
9
     A rest period is the continuous and defined period of time before and/or following a duty period in which a flight
     crewmember is free from all duties and is not obligated to be available for direct contact by an air carrier.
10
     Compensatory rest is the amount of rest required after a pilot’s normal time off between scheduled flight times has
     been reduced.
                                                                                                         4

According to the National Academy of Sciences, lengthy commutes across
multiple time zones may exacerbate fatigue. Commuting is a common industry
practice, and pilots are not required to live within a certain distance of their
assigned duty location. Many pilots’ commutes can involve cross-country travel;
for example, as shown in table 3, the NTSB’s Colgan investigation revealed that
out of 136 Newark-based Colgan pilots, 49 (36 percent), had commutes of at least
400 miles, with some commuting from states such as California, Nevada, and
Washington.
                Table 3. Commuting Distances for Newark-Based Colgan Pilots

                Distance From
                                       # Pilots                    States Represented
                Newark Airport

             Less Than 100 Miles          45      Connecticut, New Jersey, New York, Pennsylvania

                                                  Maryland, Massachusetts, New York, Pennsylvania,
             100 to 199 Miles             13
                                                  Rhode Island
                                                  Maine, Massachusetts, New Hampshire, New York,
             200 to 399 Miles             29
                                                  North Carolina, Pennsylvania, Virginia

                                                  Florida, Georgia, Illinois, Iowa, Michigan, Ohio,
             400 to 999 miles             20
                                                  South Carolina, Tennessee, West Virginia

                                                  California, Colorado, Florida, Louisiana, Minnesota,
             Over 1,000 Miles             29
                                                  Nevada, Texas, Utah, Washington
           Source: NTSB


The Airline Safety and FAA Extension Act of 2010 11 requires FAA to establish
new flight and duty time limits that consider scientific data on human physiology
by August 2011. The Act also called on the National Academy of Sciences to
study pilot commuting, its impact on pilot fatigue, and carriers’ commuting
policies. 12

FAA HAS BEGUN UPDATING OUTDATED FLIGHT, DUTY, AND
REST REGULATIONS BUT HAS NOT ADDRESSED PILOT
DOMICILE AND COMMUTING ISSUES
FAA has taken steps to update flight, duty, and rest regulations for pilots, such as
including commuting as a topic for the proposed training requirements in the
NPRM. However, FAA has not developed requirements for carriers to have
policies addressing pilot domicile and commuting issues, and FAA’s September
2010 NPRM does not impose limitations on pilot domicile or commuting—factors
that can contribute to fatigue. In addition, FAA does not require carriers to collect
and analyze data on pilots that commute. None of the six air carriers we visited
had their own policies regulating pilot commuting or domicile, and they did not
11
     Pub. L. No. 111-216, Section 212 (August 2010).
12
     The National Academy of Sciences report was published in July 2011.
                                                                                                                      5

track the total number of commuters or their commuting distances. Our work also
indicates that pilots may not be reporting all instances of fatigue. This may limit
FAA’s ability to identify any connection between commuting and fatigue.

Current Federal Regulations Are Outdated, Difficult To Interpret, and
Not Scientifically Based
While the aviation industry has seen dramatic change over the years, the current
flight, duty, and rest regulations that apply to Part 121 air carriers 13 were originally
written decades ago and have not been updated to reflect industry changes such as
multi-leg flights and crossing multiple time zones. The last modification to the
regulations occurred in 1985 when the following were added: (1) pilots were
required to have a minimum of 8 hours of rest in the 24-hour period before the
expected arrival time of their flight and (2) dual responsibility was placed on both
the pilot and air carrier to ensure compliance with flight, duty, and rest regulations.

The current regulations can be confusing to pilots and air carriers since they
contain many sets of rules governing domestic, international, and supplemental
(i.e., unscheduled cargo or charter) operations. Each flight and duty time
regulation was developed independently for each segment of the aviation industry,
creating a lack of continuity and implementation challenges. FAA personnel we
interviewed noted that flight crews and air carriers frequently contact FAA to
obtain clarification on flight and duty rules. For example, domestic flight rest
requirements state that a pilot scheduled for at least 8 hours but less than 9 hours
of flight time must receive a minimum of 10 hours rest. However, the rest period
can be reduced to 8 hours, as long as the pilot receives 11 hours of compensatory
rest prior to the next flight. In contrast, international flight rest requirements, for a
one or two-pilot crew, state that a pilot scheduled to fly more than 8 hours during a
24-hour period, shall have a rest period at or before the end of the 8 scheduled
hours of flight duty. Further, the rest period must be at least twice the number of
hours flown since the preceding rest period, but not less than 8 hours.

In addition, the current regulations do not incorporate the results of scientific data
and research despite longstanding recommendations from the National
Aeronautics and Space Administration (NASA) and the NTSB:

     • In 1996, a NASA Ames work group, formed to develop principles and
       guidelines for duty and rest scheduling in commercial aviation, made
       recommendations for Part 121 and 135 operations. 14 These included

13
     Part 121 operations refer to commercial operations of large aircraft regulated under 14 C.F.R. Part 121, Operating
     Requirements: Domestic, Flag, and Supplemental Operations.
14
     Part 135 operations refer to commercial operations of small aircraft regulated under 14 C.F.R. 135, Operating
     Requirements: Commuter and On Demand Operations. Commuter operators conduct scheduled operations using
     aircraft with 9 or fewer passenger seats and on-demand operators conduct unscheduled operations using aircraft with
     30 or fewer passenger seats.
                                                                                                 6

          recommendations to define maximum flight duty periods and minimum rest
          periods and to consider scientific data on human physiology with regard to
          scheduling practices.
     • In 2006, the NTSB stated that FAA flight and duty time limits did not reflect
       recent research on crew alertness and pilot fatigue and sleep issues, which
       increased the possibility that pilots would fly fatigued. The NTSB
       recommended that FAA modify the flight crew hours of service regulations
       to consider factors such as length of duty day, start time, workload, and other
       factors that affect crew alertness.

Other countries and international aviation organizations have already designed and
implemented scientifically based airline pilot fatigue standards. For example, in
2004 the United Kingdom updated its regulations based on scientific factors and
adjusted maximum pilot duty periods based on time of day, number of flight legs,
time zones crossed, acclimatization to local time, and other factors. In 2009, the
International Civil Aviation Organization also enacted standards and
recommended practices that require participating countries to base their
regulations on scientific principles and knowledge. 15

FAA Is Working To Address Longstanding Issues With the Existing
Flight, Duty, and Rest Regulations
After the Colgan accident, in June 2009 FAA and the Department held an Airline
Safety Call to Action and identified pilot fatigue as a top priority for the aviation
industry. Since then, FAA has taken several steps to address the longstanding
issues with the current flight, duty, and rest regulations. The Agency released
three guidance documents in 2010 that addressed fatigue within the industry:

     • On June 7, 2010, FAA issued Advisory Circular 120-100 that reported
       findings and best practices discussed at an FAA-sponsored international
       fatigue symposium in 2008. The circular addressed the effects of fatigue on
       human performance and how individuals and aviation service providers can
       reduce or mitigate the effects of fatigue. For example, one strategy is to
       decrease fatigue factors that drive lapses in attention, such as improved crew
       scheduling, to provide adequate sleep opportunities and improve individual
       sleep habits.
     • On August 3, 2010, FAA issued Advisory Circular 120-103 that described
       the concepts and common elements of a fatigue risk management system,
       such as formulating a fatigue risk management policy, fatigue analysis, and
       incident reporting process.


15
     If the current NPRM is finalized as written, it would meet the intent of these standards.
                                                                                                                7

 • On August 19, 2010, FAA issued Information for Operators (InFO) message
   no. 10017 that provided the structure and elements required for an air
   carrier’s fatigue risk management plan. These elements include having a
   fatigue reporting system, a fatigue training program, a fatigue incident
   reporting process, and a fatigue monitoring system for flight crews.

FAA is developing additional advisory circulars that will complement the
proposed changes to the current regulations and is facilitating a study to assess
crewmember fatigue during long-range flights.

In addition, on September 14, 2010, FAA issued an NPRM that would make
significant changes to the existing flight, duty, and rest regulations for commercial
carriers. If adopted without modification, the new requirements would eliminate
the current distinctions between domestic, international, and supplemental
operations. It would also institute new flight, duty, and rest requirements based on
scientific factors such as time of day flown and sleep consideration. Table 4
summarizes these changes.
    Table 4. Comparison of Current Part 121 Regulations to NPRM Regulations

                      Current Part 121                                               NPRM
 Minimum Rest Prior to Duty,
 Domestic
 8 to 11 Hours Depending on Flight Time                           9 Hours
 Minimum Rest Prior to Duty,
 International
 Minimum of 8 Hours to Twice the Number of Hours Flown            9 Hours
 Maximum Flight Duty Time,
                a
 Unaugmented
 16 Hours                                                         9 to 13 Hours Depending on Start Time
                                                                  and Number of Flight Segments
 Maximum Flight Duty Time,
             b
 Augmented
 16 to 20 Hours Depending on Crew Size                            12 to 18 Hours Depending on Start Time,
                                                                  Crew Size, and Aircraft Rest Facility
 Maximum Daily Flight Time,
 Unaugmented
 8 Hours                                                          8 to 10 Hours Depending on Flight Duty
                                                                  Period Start Time
 Maximum Daily Flight Time,
 Augmented
 8 to 16 Hours Depending on Crew Size                             None
a. Unaugmented means there is a minimum number of flight crewmembers.
b. Augmented means there is more than the minimum number of flight crewmembers required by the airplane type
   certificate to operate the aircraft. This allows a flight crewmember to be replaced by another qualified flight
   crewmember for in-flight rest.
Source: Federal Register, Vol. 75, P. 55852 (September 14, 2010)


Issuing the NPRM was an important and much needed step towards changing
outdated regulations. However, the NPRM still faces significant opposition from
the aviation industry. FAA has already received over 2,500 comments related to
                                                                                                                 8

the NPRM, most of which oppose the implementation of the rule as proposed. 16
Examples of some comments are listed below:

     • Air carriers oppose a “one size fits all approach” to eliminate the distinctions
       between different types of aviation operations (e.g., passenger, cargo
       operations, short-haul, long-haul, unscheduled). These comments are echoed
       by representatives of a large cargo air carrier, who states that the proposal
       does not consider the vastly different operational models of the cargo
       industry and the passenger airline business.
     • While FAA estimates the 10-year cost of the rule to be $1.25 billion, the Air
       Transport Association argues that the proposal would result in costs to air
       carriers of more than 15 times than those projected by FAA.
     • Pilots and their unions objected to the NPRM’s daily flight time limit and
       minimum rest period. This group advocates a decrease in the proposed daily
       flight time and an increase in the proposed rest period and urges that a non-
       punitive sick and fatigue policy be included in the final rule.

Earlier attempts to modify flight and duty regulations met similar resistance from
the industry. In 1992, FAA established a working group to create one set of
comprehensive regulations for Part 121 and 135 carriers. While the group did not
reach a consensus, it submitted a final report in 1994 to FAA with proposed
changes, which were eventually incorporated into an NPRM in 1995. However,
industry representatives opposed these potential changes, stating that FAA lacked
adequate safety data to justify the rulemaking and that compliance with the
regulations would impose significant costs on the industry. After 14 years of
debate and over 2,000 comments received, FAA withdrew the proposed changes
in November 2009. Given the historical opposition from the aviation industry
regarding revamping rest rules, it will be difficult for FAA to implement a final
rule on new flight, duty, and rest regulations.

FAA and Industry Policies Do Not Address Pilot Domicile and
Commuting Issues
Despite the potential impact commuting could have on pilot fatigue, FAA decided
against proposing a commuting regulation in the September 2010 NPRM. While
FAA considered mandating that pilots arrive in time to receive a pre-flight rest
period, it stated that enforcing this regulation would be difficult and that it would
not guarantee responsible commuting. Instead, it developed a draft advisory
circular with the NPRM that elaborates on the pilot’s responsibility to be properly
rested and outlines an air carrier’s responsibility to ensure each flight crewmember

16
     The number of comments is understated because many of the comments consists of bundles of 50 to 100 individual
     comments and do not include late comments, which FAA is accepting even though the comment period ended on
     November 15, 2010.
                                                                                                                                9

is properly rested before being assigned to a flight. In addition, the Agency
included commuting as a topic for the proposed training requirements in the
NPRM and noted that it expected carriers to take the length of a pilot’s commute
into account in assuring that the pilot could reasonably get the rest proposed in the
NPRM. While these are positive steps, they are only proposed components of the
NPRM.

According to the Air Line Pilots Association (ALPA), roughly 60 percent of
ALPA pilots are commuters. Of the 33 randomly captains and first officers from
five air carriers we interviewed, 17 24 pilots, or about 73 percent, were commuters
at some point in their careers (see table 5).
                                     Table 5. Number of Pilot Commuters
                                      Number of                                              % of Current
                                                         Current            Past
                       Airlines         Pilots                                                and Past
                                                        Commuters         Commuters
                                     Interviewed                                             Commuters
                      Airline #1            7                 1                  4                71%

                      Airline #2            5                 0                  1                20%

                      Airline #3           10                 7                  2                90%

                      Airline #4            5                 2                  1                60%

                      Airline #5            6                 5                  1                100%
                      TOTAL                33                 15                 9                73%
                      Source: OIG


The NTSB investigation of the Colgan crash revealed that both pilots had
commuted hundreds of miles before the flight. The captain commuted from
Tampa to Newark 3 days before the accident. He slept in the Newark crew room
on the night of his commute and again the night before the accident. The first
officer commuted from Seattle to Newark the night before the accident, changing
planes shortly after midnight in Memphis and arriving in Newark early in the
morning. She then was reported to have slept in the Newark crew room for
5.5 hours. NTSB also found that although the crew room was supposed to be a
quiet area with couches and recliners, it was not isolated and was subject to
interruptions, sporadic noise, lights, and other factors that prevented quality rest.
As a result, neither pilot took the opportunity to obtain quality sleep and be as
rested as possible before the flight.

The NTSB also found that Colgan Air did not proactively address the pilot fatigue
hazards associated with operations at an airport where pilots typically have to

17
     We did not interview pilots and first officers during our site visit with the first airline. After this visit, it was decided
     that more insight into pilot commuting and fatigue could be gained by interviewing these employees. The 33 pilots
     and first officers were interviewed at the five remaining airlines’ headquarters we visited, based on their availability
     at the time of our visit.
                                                                                                                  10

commute to in order to begin their work shifts, and stated that “Operators have a
responsibility to identify risks associated with commuting, implementing
strategies to mitigate these risks and ensure that their commuting pilots are fit for
duty.” The NTSB issued a recommendation to FAA to address fatigue risks
associated with commuting, including identifying pilots who commute.

However, FAA still does not plan to require carriers to identify pilots who
commute, or to have policies addressing pilot domicile issues that impact
commuting and fatigue. None of the six air carriers we visited had their own
commuting/pilot domicile policy for regulating commuting or a procedure to track
the total number of commuters or their commuting distances. Four of the six
carriers had a commuting clause as part of their pilots’ collective bargaining
agreement, but these do not reference ways to mitigate fatigue resulting from
commuting. Rather, these clauses are designed to relieve pilots from disciplinary
action when pilots are absent or late for work due to circumstances beyond their
control. 18

According to ALPA, the demand for more monthly and yearly flight hours flown
by fewer pilots has led to endemic fatigue levels, and the current trend among
airlines is to reduce pilot rest periods to minimum levels. Our limited work in this
area also indicates that pilots may not be reporting all instances of fatigue. During
our interviews with 33 captains and first officers at five air carriers,
26 (79 percent) stated that they experienced fatigue while on duty. However, only
eight of them notified their air carrier that they were fatigued. Reasons for not
reporting fatigue can vary, but one reason cited by pilots was that they feared
punitive action from their employers.

In its July 2011 final report, 19 the National Academy of Sciences noted that there
was not enough available data to determine the role commuting plays in
contributing to fatigue or whether commuting should be regulated. In addition,
neither FAA nor the industry can determine the impact that commuting has on
fatigue, or whether fatigue policies need improvement.

AIR CARRIERS AND FAA HAVE EFFECTIVE OVERSIGHT
SYSTEMS TO ENSURE REGULATORY COMPLIANCE BUT FAA
SHOULD REVIEW ADDITIONAL SELF-DISCLOSURE DATA
Both air carriers and FAA have systems that generally ensured compliance with
Federal regulations governing flight, duty, and rest requirements. However, FAA
inspectors do not fully examine and analyze self-disclosure data when non-

18
   While commuting clauses are designed to relieve commuting pilots from disciplinary action, these pilots will not be
   paid for the portion of the trip that was missed.
19
   National Academy of Sciences, “The Effects of Commuting on Pilot Fatigue,” July 6, 2011.
                                                                                     11

compliances do occur due to human error. This information could assist them in
monitoring the safety compliance of their assigned carriers, including in areas of
pilot fatigue.

Automated Air Carrier Scheduling Systems for Flight Crews Are
Effective in Preventing Flight, Duty, and Rest Violations
We found that the airlines’ automated crew scheduling systems are generally
accurate in alerting schedulers of potential violations. Air carriers use several
different automated systems to schedule their pilots. The six air carriers we visited
used four different automated scheduling systems, each with checks and balances
to ensure compliance with Federal duty and rest regulations and collective
bargaining agreements with the airlines’ respective unions. In addition, each
scheduling system generates real-time alerts to warn schedulers of potential
violations of these regulations and agreements.

We examined a systematic sample of 214 automated pilot schedules and actual
shifts worked for a 1-month period at the six carriers we visited and found no
violations of Federal flight, duty or rest regulations (see table 6). While there were
31 instances where pilots exceeded their prescriptive flight time, these were
“circumstances beyond the control” of the air carrier due to factors such as adverse
weather. In addition, we found 25 instances in which pilots received reduced rest
(i.e., received less than 9 hours of normal rest but more than 8 hours of reduced
rest), but in each instance the pilots received compensatory rest in accordance with
Federal regulations.
                   Table 6. Results From Pilot Flight Schedule Reviews
                                                    Scheduling      Reduced Rest
                           Pilot
                                     Scheduling   Issues Beyond        Periods
          Airline        Schedules
                                     Violations    the Control of     Permitted
                         Reviewed
                                                     the Carrier    Under Part 121
          Airline 1          30           0               5               9
          Airline 2          29           0             8                 1
          Airline 3          25           0             9                 3
          Airline 4          30           0             1                 4
          Airline 5          30           0             1                 0
          Airline 6          70           0             7                 8
           Total            214           0             31               25
     Source: OIG
                                                                                                             12

While FAA Uses Inspections To Identify Violations of Flight, Duty, and
Rest Requirements, It Does Not Require Inspectors To Analyze Self-
Disclosure Data
As we reported in December 2010, 20 inspectors typically place more emphasis on
the results of their regular surveillance activities and enforcement actions and do
not fully analyze or trend data from FAA’s Voluntary Disclosure Reporting
Program (VDRP). 21 FAA inspectors use the Air Transportation Oversight System
(ATOS) to oversee air carrier maintenance and operations at 94 Part 121 U.S. air
carriers. Under the ATOS concept, FAA inspectors apply system safety principles
and use data analysis to focus their inspections on areas that pose the greatest risk
and identify potential problems before accidents occur. ATOS also permits
inspectors to shift the focus of their inspections in response to changing conditions
within air carriers’ operations. However, VDRP and other voluntary disclosure
data, which are not typically obtained through normal surveillance means, could
serve as a valuable source of information to assist inspectors in identifying
instances and potential trends related to fatigue.

Although air carriers scheduling systems were generally accurate, human error and
judgment caused instances of non-compliance with flight, duty, and rest
regulations. These violations were self disclosed by the air carriers through the
VDRP but were not identified as violations during FAA ATOS inspections. For
example, at the six carriers we visited, four self-disclosed 10 flight, duty, or rest
violations since fiscal year 2007. The violations involved human error on the part
of crew schedulers or dispatchers when automated scheduling system alerts were
ignored, employees failed to follow company policies and procedures for
resolving warnings, or they manually miscalculated crew rest periods. For
example:

     • One violation occurred when the crew scheduler attempted to add a training
       flight to a pilot’s schedule and misinterpreted an administrative code
       intended to show an actual day of work for the pilot. The scheduler also
       deleted a previous training event, allowing the automated scheduling system
       to accept the assignment. However, this action violated Federal rest
       regulations because the pilot worked 7 consecutive days of duty without a
       24-hour rest period.

     • Another violation occurred when inclement weather and a closed runway
       caused a flight diversion to an alternate airport, which required a plane refuel.

20
     OIG Report AV-2011-026, “FAA Needs To Improve Risk Assessment Processes for its Air Transportation
     Oversight System,” issued December 16, 2010.          OIG reports are available on our Web site at
     http://www.oig.dot.gov.
21
     The VDRP provides air carriers with the opportunity to notify (self-disclose) FAA of known safety violations
     without fear of legal enforcement action.
                                                                                                                13

         However, delays after the refueling caused the flight crew, who were already
         working on a reduced rest period, to end their flight an hour past the
         mandated rest period, violating the compensatory rest requirement. Without
         the diversion, the crew would have ended their flight prior to violating the
         regulation. However, there were no crew schedulers on duty to account for
         the delay or determine if there was a violation. In addition, the dispatcher on
         duty was distracted with other obligations and did not check to see if a
         violation would occur. Both the airline and the flight crew failed to
         recognize the violation until 7 days later when the crew reviewed their
         logbooks.

Although ATOS contains a standardized checklist of questions, inspectors’
assessments of flight crewmember flight, duty, and rest time reflect a high degree
of subjectivity because individual inspectors determine the process used to
conduct these inspections. For example, the 12 inspectors we interviewed stated
there is no set number of records or schedules that must be reviewed, and the
number of records reviewed is determined by the inspector. FAA recently took
steps to ensure inspectors would consider VDRP data as part of their normal
surveillance planning by directing them to review national trend analyses of
VDRP data and identify potential safety risks.

In addition to VDRP, there are other voluntary reporting systems that inspectors
could examine that would identify instances and trends associated with fatigue.
For example, NASA’s Aviation Safety Reporting System (ASRS) allows pilots to
voluntarily report safety incidents, including instances of fatigue. From FY 2007
through FY 2010, ASRS received 484 voluntarily reports from Part 121 flight
crewmembers where instances of fatigue where cited. 22 While the role that fatigue
played in each of the reports varied, we found no indication that inspectors had
considered using this data to identify trends in fatigue.

Our assessment of inspectors’ ATOS records at the six carriers showed that while
the inspectors found no violations of flight, duty, and rest regulations, they did
identify several internal control issues relating to procedures and documentation.
Inspectors found 11 specific instances where two airlines did not adhere to
procedures, interfaces, records, or process controls or measurements. For
example, one air carrier did not have a manual that described flight crewmember
flight, duty, and rest time process controls or instructions for showing compliance
in their records. Another air carrier did not have a person responsible for
establishing and modifying the carrier’s policies, procedures, instructions, and
information for the flight crewmember flight, duty, and rest time process.

22
     According to NASA, the existence in the ASRS database of a specific number of fatigue reports cannot be used to
     project the prevalence of fatigue within the National Airspace System. However, NASA also notes that ASRS
     statistics represent the lower measure of the true number of such events that are occurring.
                                                                                 14

Inspectors also found a total of 73 deficiencies in the design of three carriers’
oversight processes, such as the air carrier not having a reference in its manual on
how the scheduling process works or no procedure in its manual to specify how
pilots will be prohibited from flying beyond the maximum limits.

CONCLUSION
Although the United States operates the safest airspace system in the world, the
2009 Colgan accident is a reminder that vulnerabilities remain. Pilot fatigue is a
longstanding safety concern as evidenced by the history of debate between FAA,
airlines, and industry over revising flight and duty regulations. FAA has taken
commendable steps to update outdated regulations and improve systems that
monitor fatigue within the industry. However, it should also collect and analyze
additional information on pilot domicile and commuting so it can better target
solutions to reduce fatigue within the aviation industry.

RECOMMENDATIONS
We recommend that FAA:
1) Ensure the collection and analysis of data regarding domicile and commuting
   length for all Part 121 flight crews. Specifically, information regarding the
   number of pilots and other flight-crewmembers who commute, their methods
   of transportation, and the distances they commute, should be collected.
2) Review and analyze the Part 121 domicile and commuting data collected to
   determine if further changes to flight duty and domicile regulations are needed
   or if airlines need to take further mitigating actions in their fatigue
   management systems.
3) Implement an internal mechanism that encourages pilots and other flight-
   crewmembers to voluntarily report instances of fatigue without facing
   disciplinary action.
4) Require inspectors to analyze voluntary disclosure data specifically for
   violations of flight, duty, and rest requirements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on July 20, 2011. We received a
response from FAA on August 16, 2011, which is included in its entirety as an
appendix to this report. FAA fully concurred with recommendation 3, and
partially concurred with recommendation 4, but completed actions that addressed
                                                                                 15

the intent of these recommendations.         Therefore, we consider these two
recommendations closed.

With regard to recommendation 1, FAA noted that the National Academy of
Sciences study did not identify a correlation between pilot commuting and safety
and that FAA would scan for available data on pilot commuting. However, we
note that the Academy concluded that a correlation could not be identified because
there were no comprehensive commuting data available in areas such as the
frequency or length of pilot commutes, the transportation modes used in
commuting, or the timing, duration, and quality of sleep for pilots before and
during their commutes. Given this lack of available data, the potential for
commuting to contribute to fatigue, clear scientific evidence that fatigue can
decrease performance, and recent fatal regional air carrier accidents in which pilot
performance or fatigue were cited as a cause or contributing factor, we believe that
FAA should collect and analyze domicile and commuting data to gain a better
understanding of the issue. We acknowledge that there are a large number of Part
121 pilots, making data collection challenging. As an option, FAA could consider
using statistical sampling techniques to collect data on commuting within the
industry.

In response to recommendation 2, FAA proposed to address commuting by
providing guidance for reviewing and validating air carrier specific fatigue risk
management plans (FRMP). FAA also proposed strengthened fitness for duty
requirements in its Notice of Proposed Rulemaking. In our opinion, and as noted
by FAA in its response, FRMPs do not directly address pilot commuting practices.
While FRMPs and stronger fitness for duty requirements are positive steps, a
comprehensive review of Part 121 domicile and commuting data by FAA will
better position the Agency and airlines to determine whether additional mitigation
or oversight measures are needed.

Accordingly, we are requesting that FAA reconsider its position for both
recommendations 1 and 2.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we are closing
recommendations 3 and 4. For recommendations 1 and 2, we request that FAA
reconsider its position based on the additional information provided in this report
and provide us with a revised response within 30 days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Bob Romich, Program Director, at (202) 366-6478.
                                                                                 16

EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this performance audit between August 2009 and July 2011 in
accordance with generally accepted Government auditing standards prescribed by
the Comptroller General of the United States. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. The following scope and
methodology were used in conducting this review.
The audit included site visits to six air carriers, who were selected based on their
classification as a Part 121 air carrier and represented three types of operations
(mainline, regional, and cargo), two FAA Flight Standards District Offices
(FSDO), five FAA Certificate Management Offices (CMO), and fieldwork at FAA
Headquarters in Washington, DC. We also attended two aviation forums and
interviewed members of four aviation trade associations. Lastly, we interviewed a
National Aeronautics and Space Administration (NASA) consultant/sleep scientist
and representatives from the National Transportation Safety Board (NTSB) (see
exhibit B for list of all entities contacted or visited).
To determine FAA’s actions to address the current Federal regulations governing
crew rest requirements and fatigue issues, including the role of pilots’ domicile
and duty location, we interviewed five officials from FAA’s Office of Aviation
Safety, an official from FAA’s Office of Chief Counsel, the NTSB, the six air
carriers, and the aviation trade associations. We also reviewed reports from the
FAA’s Civil Aerospace Medical Institute (CAMI) dealing with fatigue and human
factors and we interviewed a sleep scientist, who coauthored the National
Aeronautics and Space Administration (NASA) technical memorandum entitled
“Principles and Guidelines for Duty and Rest Scheduling in Commercial
Aviation.”
To determine FAA oversight and enforcement of the regulations, we received an
overview of the Air Transportation Oversight System (ATOS) from FAA’s ATOS
Certificate Management Office. The Air Transportation Oversight System is the
FAA’s risk-based approach to air carrier safety oversight. In addition, we
interviewed 12 FAA Principal Operations Inspectors (POIs) and aviation safety
inspectors at each of the air carrier’s FSDO or CMO to determine how ATOS
flight, duty, and rest time inspections are conducted and to learn more about
FAA’s voluntary reporting systems.
During the POI interviews, we received a total of 15 violations from four air
carriers between fiscal year 2007 to date that were self-disclosed in FAA’s
Voluntary Disclosure Reporting Program (VDRP). We analyzed all 15 VDRPs to

Exhibit A. Scope and Methodology
                                                                                   17

determine if the violations were flight, duty, or rest time related and what caused
the violation. In addition, we reviewed a total of 19 performance assessments or
Element Performance Inspections (EPIs) and a total of four design assessments or
Safety Attribute Inspections (SAIs) of Element 6.1.2 Flight Crewmember
Flight/Duty/Rest Time to determine if any flight, duty, or rest time violations were
identified. Lastly, we compared the ATOS inspection results to the VDRP data to
assess whether ATOS inspections identified violations that were self reported by
air carriers in VDRP.
To determine air carrier oversight and enforcement of the regulations we
conducted interviews with air carrier personnel responsible for Crew Planning,
Crew Scheduling, Safety, and Operations. At each air carrier, we requested and
received an up-to-date list of all pilots, stratified by seniority. From the seniority
lists, we systematically selected and analyzed a total of 214 pilots’ actual monthly
flight schedules out of a possible 13,836 pilots to identify instances of
noncompliance with FAA flight/duty time regulations and rest requirements. Of
the 214 pilot schedules, 184 were from the month of September 2009 and 30 were
from March 2010. (US Airways was unable to provide the pilot schedules for
September 2009 due to computer system limitations. As a result, US Airways
provided 30 pilot schedules from March 2010, which was the most current
schedules available at the time of our site visit.)
We also analyzed all 10 flight, duty, and rest violations reported by the carriers in
VDRP from FY 2007 through FY 2010 and provided to us by FAA inspectors to
determine what weaknesses, if any, exist within the air carriers scheduling system.
We also requested ASRS data from NASA regarding voluntary reports of fatigue
for Part 121 crewmembers from FY 2007 through FY 2010. In addition, we
reviewed each air carrier’s commuting policy, if they existed, to determine if the
air carrier identifies or maintains records on commuting pilots. Lastly, we
conducted interviews with a total of 33 pilots, who were randomly selected based
on availability, from five air carriers to gather their thoughts on fatigue,
commuting, and rest requirements. We did not interview pilots and first officers
during our site visit with the first airline. After this visit, we decided that more
insight into pilot commuting and fatigue could be gained by interviewing these
employees.




Exhibit A. Scope and Methodology
                                                                        18

EXHIBIT B. ENTITIES VISITED OR CONTACTED

Federal Aviation Administration (FAA)
   • FAA Headquarters Office of Aviation Safety, Flight Standards-
      Washington, DC
   • FAA Air Transportation Oversight System (ATOS) Certificate
      Management Office (CMO)- Dulles, VA
   • FAA Office of Chief Counsel
   • FAA Miami CMO- Miami, FL
   • FAA Delta Airlines CMO- Atlanta, GA
   • FAA Continental CMO- Houston, TX
   • FAA Pittsburgh CMO- Pittsburgh, PA
   • FAA Washington Flight Standards District Office (FSDO)- Herndon, VA
   • FAA Cincinnati FSDO- Cincinnati, OH

Aviation Trade Associations
   • Air Line Pilots Association (ALPA) - Washington, DC
   • Regional Airline Association (RAA) - Washington, DC
   • Air Transport Association (ATA) - Washington, DC
   • Allied Pilots Association (APA) - Fort Worth, TX

Air Carriers
   • Continental Airlines- Houston, TX
   • US Airways- Pittsburgh, PA
   • Atlantic Southeast Airlines- Atlanta, GA
   • ExpressJet- Houston, TX
   • Compass Airlines- Minneapolis, MN
   • ASTAR Air Cargo- Florence, KY

Other Federal Agencies
  • National Transportation Safety Board (NTSB)- Washington, DC
  • National Aeronautics and Space Administration (NASA)

Aviation Forums Attended
   • NTSB’s Professionalism in Aviation Forum: Ensuring Excellence in Pilot
      and Air Traffic Controller Performance- Washington, DC
   • Fatigue Management Forum sponsored by Aviation Week- Miami, FL




Exhibit B. Entities Visited or Contacted
                                                           19

EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Robert Romich                           Program Director

Angela McCallister                      Project Manager

Frank Danielski                         Project Manager

Craig Owens                             Senior Analyst

Natasha Thomas                          Senior Analyst

Aaron Rodgers                           Analyst

My Phuong Le                            Analyst

Doneliya Deneva                         Auditor

Andrea Nossaman                         Writer/Editor

Audre Azuolas                           Writer/Editor




Exhibit C. Major Contributors to This Report
Appendix. Agency Comments                                                                20




                    Federal Aviation
                    Administration

Memorandum
Date:
To:              Jeffery B. Guzzetti, Assistant Inspector General for Aviation
                 and Special Program Audits

From:            Clay Foushee, Director, Office of Audit and Evaluations, AAE-1
Subject:         OIG Draft Report: FAA and Industry Are Taking Action to Address
                 Pilot Fatigue But More Information on Pilot Commuting is Needed

The Federal Aviation Administration (FAA) has taken steps to update flight, duty, and
rest regulations for pilots. These steps include issuing advisory circulars and other
guidance to carriers on best practices to mitigate fatigue and key elements for carriers to
include in their fatigue risk management plans and systems. On September 14, 2010, the
FAA published a Flightcrew Member Duty and Rest Requirements notice of proposed
rulemaking (NPRM) setting out proposed flight, duty, and rest regulations intended to
limit flightcrew member fatigue in part 121 operations. That NPRM proposed to change
existing flight, duty, and rest regulations for commercial carriers by basing them on
scientific factors (e.g., time of day flown and sleep consideration) rather than type of
flight operation. The FAA has drafted a final rule that would implement the new
regulatory requirements, which is currently under review. The FAA believes the new
rule represents a significant improvement over the existing regulations.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Ensure the collection and analysis of data regarding domicile and
commuting length for all Part 121 flight crews. Specifically, information regarding the
number of pilots and other flight-crewmembers who commute, their methods of
transportation, and distances they commute, should be collected.

FAA Response: Concur in part. The work by the National Academy of Science (NAS)
with regard to air carrier pilot commuting practices represents the most recent effort to
determine whether there is a linkage between commuting and safety. The NAS panel
identified neither a correlation between pilot commuting and safety nor a unique risk to
aviation safety. Since commuting may be the result of a change to an air carrier’s
business model, such as closing a domicile or furloughing pilots, or due to a
crewmember’s personal choice, any data collection represents only a snapshot of the
industry.

Appendix. Agency Comments
                                                                                          21

Currently 90 part 121 air carriers employ 80,000 pilots in part 121 passenger and cargo
operations. Collecting data on pilot domicile and commuting practices would be a
daunting task and any consideration of additional data gathering in this regard must be
based upon consideration of whatever data is already available and the potential safety
benefit of collecting additional data. In order to make this determination, FAA will
conduct a scan of available data on pilot commuting and will determine whether
additional data could offer significant safety benefits prior to October 1, 2012.

Separately, the FAA believes the new standards established by the fatigue risk
management plans (FRMP), will address the fatigue risk posed by commuting and other
activities engaged in by crewmembers. As described more fully below, an FRMP
requires training on the effects of fatigue as a result of commuting. The FRMP also
requires an incident reporting process, a fatigue monitoring system and an evaluation
program which will gather and analyze fatigue data relating to commuting.

Recommendation 2: Review and analyze the Part 121 domicile and commuting data
collected to determine if further changes to flight duty and domicile regulations are
needed or if airlines need to take further mitigating actions in their fatigue management
systems.

FAA Response: Concur in part. The FAA has already proposed to address pilot
commuting in its NPRM through the strengthened requirements surrounding fitness for
duty. Additionally, all part 121 air carriers have submitted FRMP in response to Public
Law 111-216, section 212. While not directly addressing pilot commuting practices, the
FRMP provides carriers with the ability to determine whether it needs to address the
commuting practices of its pilots. An FRMP is an air carrier’s method for managing and
mitigating flight crewmember fatigue throughout its operation within the current
regulatory structure for flight, duty, and rest limitations. Two important components of
the FRMP are the establishment of a “Just Culture” where flight crewmembers do not
have to feel fear of retribution for reporting fatigue occurrences and the associated
circumstances leading to the fatigue event. Secondly, the FRMP establishes a “Safety
Culture” that defines a minimum threshold or level of safety that will be acceptable for
the organization. The FAA reviews and accepts all air carriers’ FRMPs. The FAA
requires any condition less than that threshold level be mitigated to bring the condition to
the acceptable level. This is normally accomplished through policy, procedure, and root-
cause analysis for continual evaluation of the effectiveness of the FRMP. The
combination of fatigue reporting and fatigue mitigation will address the effects of
commuting at an individual air carrier. The FAA will review and validate an air carrier’s
FRMP every 24 months. If necessary, the FAA will require additional revisions to an
FRMP during this review. As of August 1, 2011, the FAA has accepted all FRMPs. We
request this recommendation be closed.

Recommendation 3: Implement an internal mechanism that encourages pilots and other
flight-crewmembers to voluntarily report instances of fatigue without facing disciplinary
action.



Appendix. Agency Comments
                                                                                            22

FAA Response: Concur. On August 8, 2010, the FAA published Information for
Operators (InFO) 10017, FRMP for Part 121 Air Carriers – Part 2, which outlines
guidance for the development of an FRMP. The development of FRMP was in response
to P.L. 111-216, section 212(b), requiring each part 121 air carrier to develop an FRMP
for its operation and submit the document for review by the FAA. One element of the
FRMP is to establish a “Just Culture” and have a reporting system that encourages flight
crewmembers to report fatigue occurrences without fear of retribution. Upon FAA
acceptance of the FRMP, the air carrier is required to comply with its FRMP, as
prescribed in P.L. 111-216. The FAA accepted all FRMPs by August 1, 2011. We
believe we have met the intent of this recommendation and request it be closed.

Recommendation 4: Require inspectors to analyze voluntary disclosure data
specifically for violations of flight, duty, and rest requirements.

FAA Response: Concur in part. The FAA Flight Standards has two voluntary disclosure
programs: Voluntary Disclosure Reporting Program (VDRP) and Aviation Safety Action
Program (ASAP). The goal of these programs is to enhance aviation safety through the
prevention of accidents and incidents. Their focus is to encourage voluntary reporting of
safety issues, including fatigue, and events that come to the attention of employees of
certificate holders. The FAA believes that the open sharing of safety events and a
cooperative approach to solving problems will enhance and promote aviation safety. The
FAA analyzes and evaluates each voluntary disclosure using a root cause analysis. The
root cause analysis leads to the development of a comprehensive fix. The comprehensive
fix includes a follow-up self-audit to ensure that the action taken corrects the identified
safety issue. This self-audit is in addition to the FAA’s risk analysis process conducted
under the FAA’s Air Transportation Oversight System.

The analysis of each event includes the potential involvement of flight, duty, and rest
standards. Whether a VDRP or ASAP, the FAA inspectors responsible for the oversight
of an air carrier are directly involved with the air carrier in analyzing the root cause of the
report and evaluating the implementation of the comprehensive fix. In addition, FAA
periodically audits the voluntary programs and includes much of the voluntary program
data in Aviation Safety Information Analysis and Sharing analysis. The FAA believes
that we have met the intent of this recommendation and requests it be closed.




Appendix. Agency Comments
